          Office of Inspector General
           for the Millennium Challenge Corporation


                                                                                    June 1, 2011


Ms. Victoria B. Wassmer
Vice President of Department of Administration and Finance
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Ms. Wassmer:

This letter transmits the Office of Inspector General’s final report on the Survey of the
Millennium Challenge Corporation’s Implementation of Selected Controls Over Personal Digital
Assistants (M-000-11-007-S). In finalizing this report, we considered your written comments on
our draft report and included those comments in their entirety in Appendix II of this report.

Although this is not an audit report, it contains four recommendations to strengthen the
Millennium Challenge Corporation’s controls over its personal digital assistants. We agree with
MCC’s management decisions for Recommendations 1, 2, 3, and 4.

I appreciate the cooperation and courtesy extended to my staff during this audit.

                                                      Sincerely,

                                                       /s/

                                                      Alvin A. Brown
                                                      Assistant Inspector General
                                                      Millennium Challenge Corporation


cc:       Mark Sandy, Managing Director, Administration and Finance
          Dennis Laurer, Chief Information Officer
          Arlene McDonald, Compliance Officer




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
www.usaid.govoig
SUMMARY
A personal digital assistant (PDA) is a mobile device that may be used for voice calls,
text messages, data storage, accessing the Internet, sending/receiving e-mail, and
performing other tasks such as calculations. Nonetheless, PDAs have a variety of risks,
including improper personal use and unauthorized access.

The Millennium Challenge Corporation (MCC) has an average of 315 PDA users, and
budgeted $480,000 in fiscal year 2011 for PDA services. This survey was initiated to
determine whether MCC implemented selected controls to reduce the risks to its PDAs.
For this survey, selected controls were (1) approval for staff to receive PDAs, (2) reviews
of PDA charges, (3) collections for unauthorized use of PDAs, and (4) selected security
controls.

This survey found that MCC implemented the following controls over its PDAs:

   •   Collected money from its PDA users for unauthorized charges reported to the
       Chief Information Officer.
   •   Adopted the Department of Defense checklist as the baseline for securing its
       BlackBerrys.
   •   Documented its BlackBerry configuration security policy.
   •   Prepared a Policy on Personal Digital Assistants (November 26, 2008) to inform
       employees about the laws, regulations, and policies governing the issuance and
       use of MCC-owned PDAs.
   •   Configured the server for the PDAs to perform the following functions:
       - Encrypt the disks
       - Require an 8-character alphanumeric password
       - Lock after 15 minutes of inactivity and require that the user reenter the PDA’s
           password to unlock the device
       - Block the installation of third-party software
       - Prevent users from disabling the password requirement
       - Prevent outgoing calls when the device is locked

Nonetheless, MCC did not (1) prepare procedures for reviewing PDA bills (pages 3–4),
(2) consistently document PDA approvals for staff at the level of program officer and
above and for full-time personal service contractors (PSCs) (page 4), or (3) consistently
prepare justifications for issuance of PDAs (pages 5–6). To correct these control
weaknesses, this report recommends that MCC:

   1. Develop procedures to review PDA bills (page 4)
   2. Document and implement procedures for program officers and above and full-
      time personal service contractors to receive PDAs (page 5)
   3. Revise MCC’s PDA policy to reflect the current management position regarding the
      issuance of PDAs to staff who are program officers and above and full-time PSCs
      (page 5)
   4. Prepare and implement documented procedures to define what information is
      required to justify the need for staff below the program officer level, contractors,
      and intermittent PSCs to receive a PDA (page 6)



                                                                                         1
Detailed results of this survey appear in the following section. Appendix I contains the
scope and methodology. MCC provided comments on the draft report, which are
included in their entirety in Appendix II. OIG agrees with MCC’s management decisions
on all four recommendations (page 7).




                                                                                      2
SURVEY FINDINGS
Procedures Not Prepared for Reviews
of Personal Digital Assistant Bills
MCC’s Policy on Personal Digital Assistants (November 26, 2008), section 5.2, states:

       MCC employees will reimburse MCC for all personal calls that result in an
       increased cost to MCC. Department vice presidents will ensure that monthly
       PDA bills are reviewed and must report any unauthorized PDA use to the CIO
       [Chief Information Officer] by the 20th of every month.

In addition, the U.S. Government Accountability Office’s 1 Standards for Internal Control
in the Federal Government (November 1999) states that "[i]nternal control and all
transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination."               Further, "[a]ll
documentation and records should be properly managed and maintained.”

However, MCC did not maintain documentation of its reviews of PDA bills. MCC officials
acknowledged that MCC does not have procedures for implementing its PDA policy.
Specifically, MCC does not have procedures that explain to MCC staff what
documentation must be maintained for reviews of PDA bills or that require staff to certify
that the bills were reviewed. In addition, MCC does not have procedures describing how
MCC staff should conduct their reviews, including which items to focus on (e.g., roaming
charges, excessive airtime minutes). Finally, although one department established a $200
threshold, MCC did not establish corporation-wide thresholds for when to conduct a
detailed review of an individual’s charges.

As a result, MCC did not have assurance that it was reimbursed for unauthorized staff
calls. For example, Table 1 shows that from August through December 2010 there were
342 2 instances (totaling more than $124,000) 3 in which individual PDA users’ charges
exceeded $100.

               Table 1. Total Individuals’ Monthly Charges Over $100
                             (August–December 2010) 4
                     Range of Monthly Charges No.         Amount
                           $101–$200                148    $20,985
                           $201–$299                 60    $15,288
                           $300–$500                 55    $20,529
                           Over $500                 79    $67,605
                           Total                    342   $124,407

In addition, the individual responsible for administratively approving the PDA bill for
payment had no assurance that the amounts approved for payment were correct, as

1
  Formerly called the General Accounting Office.
2
  Unaudited.
3
  Unaudited.
4
  Unaudited; Source: OIG analysis of MCC’ data on PDA charges.


                                                                                        3
required by the delegation of authority from the cognizant contracting officer. For the
first 11 months of fiscal year 2010, approved payments amounted to more than
$425,000. 5 Finally, it is imperative that MCC implement controls over areas such as
this, which the public can perceive as Government abuse. Therefore, OIG makes the
following recommendation.

      Recommendation 1.            We recommend that the Millennium Challenge
      Corporation’s Chief Information Officer develop procedures for reviews of its
      personal digital assistants bills, including—

      •   Requirements to maintain documentation that bills were reviewed, including
          certifications from those responsible for reviewing the bills.
      •   A description of how the reviews should be conducted, including what items
          to focus on and organization-wide thresholds for when to conduct detailed
          reviews of an individual’s charges.

Required Approvals Not Consistently
Documented for Issuance of PDAs
According to MCC’s Policy on Personal Digital Assistants, section 5.1:

          Employees at the level of program officers and above and full-time personal
          services contractors (PSC) may receive a PDA. However, the employee’s
          supervising managing director should make an individualized decision as to
          whether or not an employee should be issued a PDA.

MCC did not consistently document PDA approvals for staff at the level of program
officer and above and full-time PSCs. Specifically, MCC staff who already had a
BlackBerry before BlackBerrys were replaced or upgraded from December 2008 through
March 2009 were given a new one without receiving approval from their supervisor. In
addition, after the refresh, those who were directors or above received a PDA upon
request, whereas an e-mail approval was required only for those below the director level.

This weakness occurred primarily because MCC did not document and implement
procedures describing the documentation of approvals required for employees at the
level of program officers and above and full-time PSCs. Moreover, although MCC policy
requires those individuals to have supervisory approvals, MCC management’s views
may have changed concerning who should receive a PDA. Specifically, although a
definitive position has not been reached, MCC management seems to believe that all
program officers and above and full-time PSCs need to be issued a PDA as part of the
standard equipment, such as computers and telephones. Thus, MCC’s PDA policy may
be outdated.

Because MCC staff have not received approvals, MCC has no assurance that staff who
have PDAs need them to conduct MCC business. Therefore, OIG makes the following
recommendations.



5
    Unaudited.


                                                                                       4
   Recommendation 2.           We recommend that the Millennium Challenge
   Corporation’s Chief Information Officer document and implement procedures
   (a) describing the required documentation that supervisors must submit for
   program officers and above and full-time personal service contractors to receive
   personal digital assistants and (b) requiring supervisors to periodically recertify
   (in a predefined timeframe) staffs’ continued need for personal digital assistants.

   Recommendation 3.           We recommend that the Millennium Challenge
   Corporation’s Chief Information Officer review and revise the Millennium
   Challenge Corporation’s Policy on Personal Digital Assistants to reflect the
   Corporation’s current management position regarding the issuance of personal
   digital assistants to staff who are program officers and above and full-time
   personal service contractors.


Required Justifications
Not Consistently Prepared for
Issuance of PDAs
According to MCC’s Policy on Personal Digital Assistants, section 5.1, employees at the
level of program officers and above and full-time PSCs may receive a PDA. However,
the policy further states that—

   •   Other MCC employees may receive PDAs if the employee’s departmental vice
       president submits a written justification to the CIO.
   •   On-site independent contractors may be issued PDAs if their contracting officer’s
       technical representative submits a written justification through their department’s
       vice president. The vice president will endorse the request and the CIO will review
       the request.
   •   Intermittent PSCs require a waiver from the department vice president to receive
       a PDA.

All 10 BlackBerry users sampled had written waivers on file provided through their
department vice presidents to the CIO. However, five of the waivers did not include a
justification for providing those individuals with a PDA. Instead, those five waivers only
cited sections from MCC PDA policy regarding the use of BlackBerrys and which
employees could receive waivers. Further, two of the five waivers included handwritten
names that had been added after the waivers were digitally signed. Thus, for the two it
was not clear whether and when those users had gone through the required waiver
process.

This problem occurred because MCC did not have procedures to define the information
required to justify the need for a PDA. As a result, MCC did not have assurance that
staff below the program officer level, contractors, and intermittent PSCs who have been
issued PDAs need them to conduct official MCC business.

Since the time those justifications were prepared, MCC has developed an automated
form that must be used to prepare waivers. The form allows only one name to be




                                                                                         5
entered, and the justification field cannot be blank. Nonetheless, as MCC officials
acknowledged, MCC should periodically recertify whether all users continue to need a
PDA. Therefore, OIG makes the following recommendation.

   Recommendation 4.           We recommend that the Millennium Challenge
   Corporation’s Chief Information Officer prepare and implement documented
   procedures to (a) define what information is required to justify the need for a
   personal digital assistant for staff below the program officer level, contractors,
   and intermittent personal service contractors and (b) require supervisors to
   periodically recertify (in a predefined timeframe) staffs’ continued need for
   personal digital assistants.




                                                                                        6
Evaluation of Management
Comments
The Millennium Challenge Corporation provided written comments to the draft report that
are included in their entirety in Appendix II. MCC agreed to take corrective action on all
four recommendations in the draft report.

For Recommendation 1, MCC agreed to develop a procedure for the monthly review of
PDA bills by April 1, 2012. OIG agrees with MCC’s management decision.

For Recommendation 2, MCC agreed to develop guidelines consistent with MCC’s PDA
policy to outline the requirements for staff to receive PDAs. In addition, MCC agreed to
prepare procedures requiring a documented business case for all staff who require
PDAs and a semiannual recertification to document the continued need for PDAs. MCC
will complete the guidelines and procedures by April 1, 2012. OIG agrees with MCC’s
management decision.

For Recommendation 3, MCC agreed to develop an information technology project risk
management policy by April 8, 2011. OIG agrees with MCC’s management decision.

For Recommendation 4, MCC agreed to update the Contracts Operating Manual to
include procedures for incorporating risk management and earned value management in
contracting actions, when required. MCC plans to take final corrective action by
March 31, 2011. OIG agrees with MCC’s management decision.




                                                                                        7
                                                                                   Appendix I




Scope and Methodology
Scope
OIG conducted this survey of the MCC’s implementation of selected controls for its
PDAs in accordance with Government Auditing Standards, except that OIG did not—

•     Research and identify legal and regulatory requirements related to this survey
      objective.
•     Assess audit risk.
•     Perform a risk assessment via a team discussion to determine the likelihood that
      noncompliance resulting from illegal acts and fraud could have a significant impact
      on this survey objective. 6
•     Identify current OIG/Investigations cases or information related to the subject.
•     Coordinate with other auditors.
•     Perform specific tests for illegal acts, fraud, and abuse.

This survey was performed in Washington, DC, from February 3 through March 23,
2011. To answer our survey objective, we interviewed MCC officials and contractors
responsible for PDAs. In addition, we reviewed contracting actions, MCC policies,
waivers given to PDA users, and MCC’s report on reimbursements for unauthorized
PDA charges. We also analyzed PDA charges from August through December 2010
and user roles on the BlackBerry Enterprise Server. For this survey, we focused on the
following selected controls: (1) approval for employees to receive PDAs, (2) reviews of
PDA charges, (3) collections for unauthorized use, and (4) selected security controls.

Methodology
To answer the survey objective, using MCC’s Policy on Personal Digital Assistants
(November 26, 2008), OIG (1) reviewed approvals for MCC staff to receive PDAs,
(2) assessed MCC’s reviews of PDA charges, and (3) assessed collections for
unauthorized use. OIG also evaluated selected security controls over PDAs based on
MCC’s Information Systems Security Policy (May 4, 2010). Specifically, OIG determined
whether—

•     A judgmental sample of MCC employees at or above the program officer level and
      full-time personal services contractors received approval from their respective
      supervisor managing director to receive PDAs. Specifically, we used a random
      number generator to select 10 (4 percent) of the 249 PDA users in this category, as
      shown in MCC’s PDA inventory. We selected a relatively small percentage of the
      population because, in our opinion, those individuals are more likely need PDAs for
      business.

•     Departmental vice presidents submitted a written justification to the Chief Information
      Officer for a judgmental sample of MCC employees below the program officer level,
      part-time personal services contractors, and on-site independent contractors to be

6
    No instances of illegal acts were identified during this survey.


                                                                                           8
                                                                            Appendix I


    issued PDAs. We used a random number generator to select 10 (15 percent) of the
    65 PDA users in this category, as shown in MCC’s PDA inventory. We selected a
    relatively large percentage of the population because, in our opinion, those
    individuals are less likely to need PDAs for business.

•   Departmental vice presidents ensured that monthly PDA bills were reviewed and that
    unauthorized PDA use was reported the Chief Information Officer by the 20th of the
    month.

•   MCC collected costs associated with unauthorized use of PDAs.

•   MCC configured its PDAs in accordance with selected security requirements.




                                                                                    9
                                                                             Appendix II



Management Comments




May 10, 2011

MEMORANDUM TO:               Alvin A. Brown
                             Assistant Inspector General for the Millennium
                             Challenge Corporation

FROM:                        Dennis Lauer /s/
                             Chief Information Officer (CIO)
                             Millennium Challenge Corporation (MCC)

SUBJECT:                     MCC Comments on the Survey of the Millennium
                             Challenge Corporation’s Implementation of Selected
                             Controls Over Personal Digital Assistants (M-000-11-
                             00X-S).

The Millennium Challenge Corporation (MCC) appreciates the opportunity to comment
on the survey of the MCC’s Implementation of Selected Controls over Personal Digital
Assistants (PDAs). This memorandum serves as Management Decision for the four
recommendations resulting from this survey.

MCC concurs with the four PDA survey recommendations and the two supplemental
PDA survey recommendations. Considering that MCC has only operated for seven years,
there has already been significant progress in establishing controls and governance over
the PDA program, including:

   1. MCC developed a Personal Data Assistant (PDA) Policy;

   2. MCC has a monthly bill/usage review process;

   3. Unlike many USG agencies, MCC has implemented Federal Desktop Core
      Configuration (FDCC) compliant security controls on all mobile devices;




                                                                                     10
                                                                                Appendix II

   4. MCC has initiated a review of the PDA policy to account for the
      recommendations in this survey; and

   5. Between 2008 - 2011, MCC reduced the annual cost of PDAs by 25% and has set
      a goal to reduce the cost of PDAs by another 25% in the next year.

MCC’s Management Response to your recommendations follows:

Recommendation No. 1: We recommend that the Millennium Challenge Corporation's
Chief Information Officer develop procedures for reviews of its personal digital assistants
bills, including:

   •   Requirements to maintain documentation that bills were reviewed, including
       certifications from those responsible for reviewing the bills.

   •   A description of how the reviews should be conducted, including what items to
       focus on and organization-wide thresholds for when to conduct detailed reviews
       of an individual's charges.

Management Response: MCC will develop a procedure for the monthly review of PDA
bills by April 1, 2012.

Recommendation No. 2: We recommend that the Millennium Challenge Corporation's
Chief Information Officer document and implement procedures (a) describing the
required documentation that supervisors must submit for program officers and above and
full-time personal service contractors to receive personal digital assistants and (b)
requiring supervisors to periodically recertify (in a predefined time frame) staffs’
continued need for personal digital assistants.

Management Response: MCC will develop guidelines consistent with the PDA policy
outlining the requirements for staff to receive PDAs and a procedure requiring a
documented business case for all staff that require PDAs. The procedure will require a
semi-annual recertification process documenting the continued need for personal digital
assistants. MCC will complete the guidelines and procedures associated with this
recommendation by April 1, 2012.

Recommendation No. 3: We recommend that the Millennium Challenge Corporation's
Chief Information Officer review and revise the Millennium Challenge Corporation's
Policy on Personal Digital Assistants to reflect the Corporations current management
position regarding the issuance of personal digital assistants to staff who are program
officers and above and full-time personal service contractors.

Management Response: MCC will review and revise the MCC’s Policy on Personal
Digital Assistants to reflect the agency’s current management position regarding the
issuance of PDAs to staff who are program officers and above and full-time personal
service contractors by December 30, 2011.



                                                                                          11
                                                                                Appendix II


Recommendation No. 4: We recommend that the Millennium Challenge Corporation's
Chief Information Officer prepare and implement documented procedures to (a) define
what information is required to justify the need for a personal digital assistant for staff
below the program officer level, contractors, and intermittent personal service contractors
and (b) require supervisors to periodically recertify (in a predefined time frame) staffs’
continued need for personal digital assistants.

Management Response: MCC will develop guidelines consistent with the PDA policy
outlining the requirements for staff to receive and to continually possess PDAs by
April 1, 2012.



Attachments:

IG/MCC, Lisa Banks
IG/MCC, Aleta Johnson
MCC/AF/FMD, Arlene McDonald
MCC/AF/FO, Mark Sandy




                                                                                        12
